Report No. D-2008-063      March 12, 2008




      Vendor Pay Disbursement Cycle,
          Air Force General Fund
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax
  (703) 604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
ADA                   Antideficiency Act
BVN                   Bureau Voucher Number
DFAS                  Defense Finance and Accounting Service
FAR                   Federal Acquisition Regulation
FASAB                 Federal Accounting Standards Advisory Board
FMR                   Financial Management Regulation
GAO                   Government Accountability Office
OUSD                  Office of the Under Secretary of Defense
PCIE                  President’s Council on Integrity and Efficiency
SAF (FM)              Assistant Secretary of the Air Force
                         (Financial Management and Comptroller)
SFFAS                 Statement of Federal Financial Accounting Standards
T&M/LH                Time-and-Materials and Labor-Hour
               Department of Defense Office of Inspector General
Report No. D-2008-063                                                     March 12, 2008
   (Project No. D2004-D000FD-0040.004)

         Vendor Pay Disbursement Cycle, Air Force General Fund

                                 Executive Summary

Who Should Read This Report and Why? Air Force contracting officers, fund
holders, resource managers, and Air Force and Defense Finance and Accounting Service
(DFAS) certifying officers and finance and accounting managers should read this report.
This report discusses the need for improving internal control over the Air Force vendor
pay disbursement cycle and summarizes the areas of risk previously reported in this
series.

Background. Management is responsible for establishing and maintaining an internal
control environment and structure to assure effective and efficient operations, reliable
financial reporting, and compliance with laws and regulations. The Inspector General
Act of 1978, as amended, provides for the independent review of agency programs and
operations in accordance with generally accepted government auditing standards which
require audit to report on internal control and compliance with laws and regulations.
Such a review of the vendor pay disbursement cycle spans the acquisition; funding;
delivery, receipt, and acceptance; payment; and recording of the financial transactions in
the official accounting records. This is the final report in a series of five reports on
internal control of the Air Force General Fund vendor pay disbursement cycle.

Results. The Air Force and DFAS did not establish and maintain adequate and effective
internal control over the Air Force vendor pay disbursement cycle. We reported
numerous internal control weaknesses in contract formation and funding, funds control,
vendor payment, and financial accounting. The reported weaknesses represent a high
risk that violations of laws and regulations not only occurred, but will likely continue to
occur if corrective action is not taken. As a result, the Air Force and DFAS will continue
to be at risk in the areas reported, and the unreliability of controls will affect the
efficiency of audit services. Specifically, management is not taking full advantage of the
benefits of internal control audits that Inspectors General and Chief Financial Officers
recognize as: (1) improving internal control and reducing material weaknesses;
(2) reducing errors and improving data integrity, documentation reliability, and reporting;
and (3) improving agency focus and oversight. A thorough review should be undertaken
of the internal control weaknesses reported and action taken to establish the policies,
procedures, system changes, and training necessary to mitigate the internal control risk
identified. See finding A for the detailed recommendations.

DFAS erroneously processed time-and-materials and labor-hour contract interim
payments containing materials as if they were subject to the Prompt Payment Act. DFAS
paid the interest without appropriate authority. As a result, DFAS paid interest in
violation of law and regulation, thus exposing itself to potential Antideficiency Act
violations. A definitive legal opinion should be requested on this matter and appropriate
actions taken in response to that opinion. See finding B for detailed recommendations.
Delayed subcontractor’s billing resulted in the use of appropriations that were no longer
available to pay for work on a time-and-materials and labor-hour contract. Air Force
personnel indicated that the contractor incurred the costs in an earlier period, but could
not bill the Government until the subcontractor submitted its invoices and the contractor
paid the subcontractor in FY 2004. We believe that the Government did not incur a
liability until the prime contractor actually received the bill from the subcontractor.
However, because available guidance is unclear, we believe that a legal opinion is
necessary to determine whether the Government should be recording the third-party
liability for subcontractors work on time-and-materials and labor-hour contracts. See
finding C for the detailed recommendations.

Management Comments and Audit Response. The Deputy Assistant Secretary,
Financial Operations (Financial Management) concurred with the intent of seven
recommendations, agreeing to reiterate the internal control policies in the Manager’s
Internal Control Program Procedures (AFI65-201) to functional areas. He also agreed to
coordinate with the other agencies to address payments for cost reimbursement for
services or contract financing. However, the Deputy Assistant Secretary nonconcurred
with one recommendation and did not provide sufficient additional documentation on one
of the five preliminary Antideficiency Act investigations we requested to support the
General Counsel’s legal determinations. In response to the draft report, the Deputy
Assistant Secretary also agreed to take any required action in response to a DoD General
Counsel legal opinion received regarding liability recognition.

The Director, Corporate Reporting Standards & Compliance, DFAS concurred with one
recommendation, partially concurred with one recommendation, and nonconcurred with
two recommendations. The Director requested and received a legal opinion from the
DFAS Deputy Assistant General Counsel, Accounting and Commercial Law, instead of
the DoD General Counsel, on the legal authority for DFAS to make interest entitlement
decisions based on the predominant contract line item, and to revise procedural guidance
based on that decision. We do not agree with that legal opinion. Because this is an
interpretation of DoD policy, we recommend DFAS General Counsel request an opinion
from the DoD, Office of General Counsel. The Director also did not agree to revise
accounting policies for foreign currency gains and losses, stating that DoD OIG’s
interpretation of a generally accepted accounting principle is problematic in that it
pertains to the translation of foreign subsidiary financial statements to U.S. dollar
equivalents, and DoD does not prepare financial statements in host country currencies.
We do not agree that it does not apply to the activities in this report, because the principle
relates to “transactions denominated in a currency other than the entity’s functional
currency.” DoD deals with such transactions as evidenced by the need for a foreign
currency fluctuation account. The Director further did not agree to segregate the material
and labor portions of time-and-materials and labor-hour contract interim payments to
prevent interest being paid on late payments for materials. He stated that DFAS has no
authority to perform payment-by-payment analysis and pay or not pay interest based on
the characteristics of the specific item, and that DFAS determines whether a contract is
for services at the contract level. We do not agree that DFAS has no authority to perform
a payment-by-payment analysis on contract payments. The February 2007 change to
FAR 52.232-7 requires DFAS to review payments on time-and-material and labor-hour
contracts so that interest will not be paid on late payments for materials.

We request that the Assistant Secretary of the Air Force (Financial Management and
Comptroller) and Director, Defense Finance and Accounting Service reconsider their
positions. We request all comments to the final report by May 12, 2008. See the Finding
sections for a discussion of management comments to the findings and recommendations,
and the Management Comments section for the complete text of the comments.

                                              ii
Table of Contents

Executive Summary                                                           i

Background                                                                  1

Objectives                                                                  2

Finding
     A. Controls Over Vendor Pay Disbursement Cycle                         3
     B. Interest Payments on Time-and-Materials and Labor-Hour Contracts   15
     C. Liability Recognition                                              20

Appendixes
     A. Scope and Methodology                                              24
         Prior Coverage                                                    25
     B. DoD Financial Management Regulation Guidance                       26
     C. Contracting Actions Selected for Review                            27
     D. Report Distribution                                                30

Management Comments
     Department of the Air Force                                           31
     Defense Finance and Accounting Service                                37
Background
           Management is responsible for establishing and maintaining an internal control
           environment and structure to assure effective and efficient operations, reliable
           financial reporting, and compliance with laws and regulations. The Inspector
           General Act of 1978, as amended, provides for the independent review of agency
           programs and operations in accordance with generally accepted government
           auditing standards which require auditors to report on internal control and
           compliance with laws and regulations. Such a review of the vendor pay
           disbursement cycle spans the acquisition; funding; delivery, receipt, and
           acceptance; payment; and recording of the financial transactions in the official
           accounting records.

           Three types of internal controls exist: compliance, operations, and financial
           reporting. In this series of audits, we conducted a series of control sample tests
           related to the three types of internal controls as presented in the Government
           Accountability Office (GAO) and President’s Council on Integrity and Efficiency
           (PCIE) Financial Audit Manual. In accordance with these guidelines, 1 we
           randomly selected 45 contracting actions for a comprehensive examination of:

               •   the nature and funding of the contracts;

               •   delivery, receipt, and acceptance;

               •   payment; and

               •   financial recording of the related budgetary and proprietary transactions in
                   the official accounting records.

           In a sample of 45 items, one defect indicates the risk is high that the relevant
           internal control is not effective. 2 Depending on the type and nature of the internal
           control deviation, the internal control defect might be significant as a separate
           finding or treated as one of a homogeneous group of like errors and related
           causes.

           The following is a summary of the findings and recommendations made in the
           four reports on the Vendor Pay Disbursement Cycle of the Air Force General
           Fund in this series.

           Contract Formation and Funding. 3 Internal control was not effective to ensure
           vendors were properly paid with Air Force General Fund appropriations in
           accordance with laws and regulations. We reported that Defense Finance and
           Accounting Service (DFAS) personnel improperly paid 13 of the 45 contracting
           actions from appropriations that were either not permitted by law, or the goods or




1
    GAO/PCIE Financial Audit Manual, section 450, “Sample Control Tests,” July 2001.
2
    GAO/PCIE Financial Audit Manual, section 450, figure 450.1, table 1, “Sample Sizes and Acceptable
    Numbers of Deviations,” July 2001.
3
    Report on Vendor Pay Disbursement Cycle, Air Force General Fund: Contract Formation and Funding
    (D-2006-056), March 6, 2006.

                                                     1
          services were not a bona fide need of the period the funds were available for
          obligation (finding A). We also reported that 2 of the 45 vendors performed
          services before the contracts were properly funded (finding B).

          Funds Control. 4 Internal control was not effective to ensure that Air Force
          personnel effectively monitored and took corrective action when DFAS personnel
          used incorrect funds to pay for goods and services. In 7 of the 45 contracting
          actions, personnel did not always use the correct line of accounting (finding A).
          We also reported that internal control was not effective when Air Force personnel
          did not monitor and follow up on unliquidated obligations for 11 of the 45
          contracting actions (finding B).

          Payments to Vendors. 5 Internal control was not effective to ensure that vendors
          were paid from the correct appropriations in 3 of the 45 contracting actions
          (finding A), vendors were paid in accordance with the contract terms and
          conditions in 25 of the 45 contracting actions (finding B), and cash management
          practices were in compliance with laws and regulations in 18 of the 45
          contracting actions (finding C).

          Financial Accounting. 6 Internal control was not effective to ensure that
          transactions were recognized on the date the financial events transpired, contract
          holdbacks and unfunded liabilities were properly posted, internal edits existed to
          ensure that all liabilities were posted to the accounting records in compliance with
          laws and regulations, and transactions could be traced to the source documents to
          support the accounting entries in the United States Standard General Ledger.


Objectives
          Our overall audit objective was to assess internal controls and compliance with
          laws and regulations pertaining to the vendor pay disbursement cycle in the Air
          Force General Fund and supported activities. See Appendix A for a discussion on
          the scope and methodology, Appendix B for critical guidance used in this audit,
          and Appendix C for a complete list of the 45 contracting actions randomly
          selected for examination.




4
    Vendor Pay Disbursement Cycle, Air Force General Fund: Funds Control (D-2006-085), May 15, 2006.
5
    Vendor Pay Disbursement Cycle, Air Force General Fund: Payments to Vendors (D-2007-027),
    November 24, 2006.
6
    Vendor Pay Disbursement Cycle, Air Force General Fund: Financial Accounting (D-2007-059),
    February 9, 2007.
                                                   2
                   A. Controls Over Air Force Vendor Pay
                   Disbursement Cycle
                   The Air Force and Defense Finance and Accounting Service did not
                   establish and maintain adequate and effective internal control over the Air
                   Force vendor pay disbursement cycle. Representatives of the Assistant
                   Secretary of the Air Force (Financial Management and Comptroller)
                   (SAF/FM) and the Defense Finance and Accounting Service, in their
                   responses to this series of reports, did not take appropriate actions to
                   address the weaknesses. We reported numerous internal control
                   weaknesses in contract formation and funding, funds control, vendor
                   payments, and financial accounting, but management’s comments:

                           •    nonconcurred with our recommendations without providing
                                adequate support for doing so,

                           •    included inconsistent information, and

                           •    attempted to lessen the materiality of the audit results by
                                questioning the size of the audit sample.

                   In our evaluations of management’s comments, we generally concluded
                   management did not thoroughly examine the criteria and the facts
                   referenced in the reports. While DFAS management disagrees with our
                   assessment of control risk, we reached our conclusion by using sample
                   control test methodology, as established in the GAO/PCIE Financial Audit
                   Manual. 7 The results of such an assessment are used to evaluate
                   management’s compliance with laws and regulations, and to determine the
                   nature, timing, and extent that substantive testing needed to determine
                   whether a material weakness or misstatement in the financial statements
                   has occurred. Therefore, the internal control weaknesses we reported
                   represent a high risk that violation of laws and regulations not only
                   occurred, but will likely continue to occur if corrective action is not taken.
                   In addition, the unreliability of internal controls will affect the efficiency
                   of audit services. Specifically, management is not taking full advantage of
                   the benefits of internal control audits that Inspectors General and Chief
                   Financial Officers recognize as: (1) improving internal control and
                   reducing material weaknesses; (2) reducing errors and improving data
                   integrity, documentation reliability, and reporting; and (3) improving
                   agency focus and oversight.




7
    GAO/PCIE Financial Audit Manual, section 450, “Sample Control Tests,” July 2001.

                                                    3
Criteria for Internal Control
     The Inspector General, DoD, performs audits in accordance with the GAO/PCIE
     Financial Audit Manual. In the internal control phase, the auditor evaluates
     controls for each significant cycle and accounting application to determine
     whether significant financial management systems substantially comply with
     Federal financial management systems requirements, Federal accounting
     standards, and the United States Standard General Ledger at the transaction level.
     A cycle or an accounting application is considered significant if it processes
     transactions in excess of design materiality, or if it supports a significant account
     balance in the financial statements. Auditors may also identify other cycles,
     accounting applications, or financial management systems as significant based on
     qualitative considerations. For example, financial management systems covered
     by the Federal Financial Management Improvement Act include not only systems
     involved in processing financial transactions and preparing financial statements,
     but also systems supporting financial planning, management reporting, budgeting
     activities, systems accumulating and reporting cost information, and the financial
     portion of mixed systems such as acquisition systems.

     The 2003 revision of the GAO Government Auditing Standards explains an
     examination of internal controls may include:

            •   effectiveness and efficiency of operations, including the use of
                resources,

            •   reliability of financial reporting,

            •   compliance with applicable laws and regulations and provisions of
                contracts, and

            •   safeguarding of assets.

     In addition, the GAO Government Auditing Standards requires auditors to report
     the views of responsible officials. Those views are expressed by management’s
     comments about internal control deficiencies, illegal acts, and violation of
     provisions of contracts, and through the corrective actions these officials plan to
     take.

     According to the GAO “Standards for Internal Control in the Federal
     Government,” November 1999, a positive control environment that sets a positive
     and supportive attitude toward internal control is the first internal control
     standard. In the GAO “Internal Control Management and Evaluation Tool,”
     August 2001, one consideration of management’s philosophy and operating style
     is that management places a high degree of importance on the work of the
     Inspector General and other evaluations and is responsive to information
     developed through their products. Another standard of internal control is that
     monitoring should ensure that the findings of audits and other reviews are
     promptly resolved. The evaluation tool considers whether managers promptly
     review and evaluate findings from audits, determine the proper actions to take,
     and take corrective actions within established time frames. If there are
     disagreements with the findings or recommendations, management is expected to
     demonstrate that those findings or recommendations are either invalid or do not
     warrant action.


                                           4
Management Responses
           These four reports included 43 recommendations to three organizations within
           DoD: Office of the Assistant Secretary of the Air Force (Financial Management
           and Comptroller), Office of the Assistant Secretary of the Air Force (Acquisition),
           and the Defense Finance and Accounting Service. Many of these recommended
           that SAF/FM coordinate with the other organizations to provide effective actions
           to correct the control weaknesses identified in the report. Representatives of the
           SAF/FM and DFAS, in their response to this series of reports, did not take
           appropriate actions to address the internal control weaknesses. We reported
           numerous internal control weaknesses in contract formation and funding, funds
           control, vendor payment, and financial accounting. However, management
           comments:

                    •   nonconcurred with recommendations without providing adequate
                        support for doing so,

                    •   included inconsistent information, and

                    •   attempted to lessen the materiality of the audit results by questioning
                        the validity of he sample size.

           Unsupported Comments. While comments from the Assistant Secretary of the
           Air Force (Acquisition) concurred or concurred with the intent of all applicable
           recommendations, the comments from SAF/FM and DFAS, or their
           representatives tasked to answer the report, did not concur with most of the
           recommendations.

                    •   In the first report in this series, 8 SAF/FM did not comment on seven of
                        nine recommendations. The comments on the remaining two
                        recommendations did not address the internal control weaknesses
                        identified in the report.

                    •   The representative from SAF/FM also did not comment on
                        recommendations made in the third 9 and fourth reports 10 preferring to
                        let DFAS management provide comments instead.
           For the first report, SAF/FM did not address the internal control weaknesses in
           the 13 contracting actions that were identified in the report. While we reported
           Air Force personnel took action to correct one of the sampled items, the responses
           focused only on the two recommendations to perform Antideficiency Act (ADA)
           investigations on the contracting actions that we reported violated appropriation
           laws and regulations. In response to the draft report, management agreed to




8
    Report on Vendor Pay Disbursement Cycle, Air Force General Fund: Contract Formation and Funding
    (D-2006-056), March 6, 2006.
9
    Vendor Pay Disbursement Cycle, Air Force General Fund: Payments to Vendors (D-2007-027),
    November 24, 2006.
10
     Vendor Pay Disbursement Cycle, Air Force General Fund: Financial Accounting (D-2007-059),
     February 9, 2007.

                                                    5
           initiate preliminary investigations on four of the contracting actions. After we
           requested management to reconsider their position in the final report, they agreed
           to initiate preliminary reviews on three of the remaining contracting actions. We
           continue to believe the remaining contracting actions violated appropriation laws
           or regulations. However, even if the results of the preliminary reviews indicate
           that an ADA violation did not occur, the circumstances surrounding each
           deficiency still merit an examination of the contracting actions, policies,
           procedures, and training requirements to reduce the risk of actual violations in the
           future.

           Support for Disagreements. Representatives of the Assistant Secretary of the
           Air Force (Financial Management and Comptroller) did not agree with our
           recommendations to perform investigations for possible ADA violations on five
           of the contracting actions in the first report, and the Central Site Director, DFAS
           Denver nonconcurred with the recommendations made in the fourth report
           without providing adequate support for doing so. After we provided details to
           SAF/FM outlining the inadequate support, we received sufficient additional
           documentation with management comments to the draft report on four of the
           contracting violations. 11 We discuss the fourth contracting action below, and the
           fifth action is discussed in finding C of this report.

           SAF/FM. The Deputy Assistant Secretary, Financial Operations (Financial
           Management) did not require a preliminary review on one contracting action
           related to the DoD policy on the bona fide needs rule. 12 We believe the
           contractual circumstances surrounding the deficiency merits review. Our review
           of the supporting documents provided by management raised a number of
           questions as to their applicability to the sampled transactions. Management did
           not provide sufficient evidence that personnel followed DoD policy and
           contracting regulations.

           DFAS. The Central Site Director, DFAS Denver nonconcurred with five of the
           six recommendations from the fourth report. While we have reconsidered our
           position on Recommendation 5, we continue to believe that the director did not
           have a reasonable basis for nonconcurring with Recommendations 1-4. We
           provided the criteria applied in the audit in Appendix B of the draft report. It
           cited the applicable guidance from the Office of Management and Budget,
           Federal Financial Management Improvement Act, Federal Accounting Standards
           Advisory Board (FASAB), and generally accepted accounting principles.
           However, the director did not rebut the recommended actions in response to the
           stated criteria.

                   Recommendation 1 - The director’s initial and final comments to this
                   recommendation were not consistent with Federal Financial Management
                   Improvement Act, Office of Management and Budget, and FASAB
                   criteria. After reconsideration, the director restated on April 9, 2007, that
                   the vendor and contract payment systems were subsidiary ledgers and the
                   data was accessible in those systems. However, the director provided no




11
     Sample numbers 11, 24, and 57.
12
     Sample number 27.
                                                 6
                    evidence the current Air Force general ledger was auditable in compliance
                    with the applicable criteria. 13

                    Specifically, we stated in the report that we could not readily trace
                    transactions by source document reference and the effective date of the
                    financial events through the Air Force base-level, vendor payment, and
                    contract payment systems to the Air Force general ledger for disclosure in
                    the financial statements. The director’s statement that the vendor and
                    contract payment systems were subsidiary ledgers to the general ledger is
                    not consistent with the accounting definition for subsidiary ledgers and the
                    general ledger as a control account. The entries made to the Air Force
                    general ledger were not consistent with a daily journal entry that
                    summarized the daily events and amounts in the control account. The
                    internal control weakness that we addressed is that the data in the Air
                    Force general ledger, used to prepare financial statements, do not
                    represent, and are not directly traceable to, the financial events. The
                    system that DFAS uses to trace transactions from reports to supporting
                    documentation does not provide an adequate audit trail. The DoD
                    Financial Management Regulation (FMR) 14 provides the key accounting
                    requirements for DoD financial management systems. Key Accounting
                    Requirement No. 8 states that in any compliant system, the financial
                    transactions for which the system accounts must be traceable to individual
                    source records. In addition, the FMR requires DFAS to maintain a
                    complete and documented audit trail to support the reports it prepares. 15
                    Management did not address that weakness in relation to the rights and
                    obligations and the completeness of management assertions.

                    Recommendation 2 - The director’s initial and final comments on this
                    recommendation were not consistent with the DFAS mission statement
                    and recognized authority. We reported that DFAS calculates and
                    recognizes foreign currency gains and losses on the date of disbursement.
                    We recommended that DFAS process foreign currency gains and losses on
                    the date of the payable in accordance with Generally Accepted
                    Accounting Principles. The director responded that foreign currency gains
                    and losses were processed in accordance with the DoD Financial
                    Management Regulation, and DFAS did not have authority to deviate
                    from the DoD policy.

                    According to the DFAS mission statement, DFAS supports the Office of
                    the Under Secretary of Defense (OUSD) (Comptroller), the principal
                    advisor to the Secretary of Defense for budgetary and fiscal matters.
                    DoD Directive 5118.5, “Defense Finance and Accounting Service,”
                    December 13, 1991, states that “The Director, Defense Finance and
                    Accounting Service (DFAS), is the principal DoD executive for
                    accounting and finance requirements, systems, and functions.” Therefore,




13
      The director’s comments discussed the future Defense Enterprise and Accounting Management System
     projected for full implementation in 2010.
14
     DoD FMR, volume 1, chapter 3, “Accounting Systems Conformance, Evaluation, and Reporting.”
15
      DoD FMR, volume 6A, chapter 2, “Financial Reports Roles and Responsibilities,” section 020201,
     subsection C., paragraph 7 and section 020203, subsection B.

                                                      7
DFAS is responsible for establishing and enforcing requirements,
principles, standards, systems, procedures and practices to comply with
finance and accounting statutory and regulatory requirements applicable to
the DoD. Because the GAO did not waive that portion of Generally
Accepted Accounting Principles in accounting for foreign currency gains
and losses that is applicable to DoD, and because Generally Accepted
Accounting Principles takes precedence over the DoD FMR, we believe it
is appropriate that the Director, DFAS, as the principal DoD executive for
accounting requirements, take the lead to establish and implement the
policy through coordination with OUSD (Comptroller).

Recommendation 3 - The director’s initial and final comments on this
recommendation were not consistent with Office of Management and
Budget criteria. As he did in Recommendation 1, the director
nonconcurred by relying on the vendor and contract payment systems to
maintain controls for recording the budgetary and proprietary transactions.
As previously stated, we reported the weakness in context with the
preparation of the financial statements, not whether the data was captured
and stored in a feeder or mixed system.

The director’s comments also were in conflict with Statement of Federal
Financial Accounting Standards (SFFAS) No. 21, which amended SFFAS
No. 7, paragraph 76. In SFFAS No. 7, FASAB did not allow agencies to
restate prior period financial statements because of the unnecessary
burden restatement presented to agencies at that time. This policy
prevented agencies from presenting accurate comparative financial
statements when the prior period statements contained a material error. In
SFFAS No. 21, FASAB amended SFFAS No. 7 to require restatement of
prior period financial statements for material errors discovered in the
current period, if the statements are for comparative purposes, and if the
effect of the error would be material to the financial statements in either
period. While DFAS does prepare comparative statements for its clients,
the director stated, “reinstatement [restatement] of prior period financial
statements may end up disguising the impact of that delayed recognition
of the financial event since Financial Managers are more likely to be
reviewing the most current financial statements and not prior reinstated
[restated] financial statements.” We believe DFAS must have the
capability to assess potentially material prior period adjustments created
on a transaction or accrual basis and restate prior period financial
statements in accordance with SFFAS No. 21.

Recommendation 4 - The director’s initial and final comments on this
recommendation were not consistent with the FASAB, SFFAS No. 1, and
United States Standard General Ledger posting requirements. The
director’s final comments did not rescind his prior statement that contract
holdbacks are recognized as accounts payable, instead of as other
liabilities. In addition, the director did not change his position regarding
the recognition of unfunded liabilities. The director maintained that
“unfunded liabilities, as described in the audit report, is when Congress
has authorized the Government to enter into contracts in advance of




                              8
                    appropriations. Contracts are not input into MOCAS 16 without
                    appropriations.” We reported unfunded liabilities resulting from instances
                    of vendor performance prior to the execution date of the delivery orders
                    which provided funding. 17 However, unfunded liabilities can also arise
                    after a funded contract is input and is later subject to the incremental
                    funding clause under Federal Acquisition Regulation (FAR) 52.232-22.
                    Under FAR 52.232-22, paragraph (i), a vendor can continue to perform
                    and incur costs, which creates an unfunded liability. When additional
                    funds are obligated on contract, the costs incurred are paid as if they were
                    incurred when the funds were already obligated on the contract.

           Air Force Accounting and Finance Office. The Director, Air Force Accounting
           and Finance Office provided comments to the third report on behalf of SAF/FM.
           The director nonconcurred with the three recommendations, stating:

                    In accordance with DoD 7600.7-M, June 1990, Department of Defense
                    Internal Audit Manual, draft reports are required to be staffed through
                    the management officials responsible for taking corrective action. In
                    order to allow timely, responsible, and appropriate responses, DoDIG
                    should revise the draft report to direct recommendations to the
                    appropriate official. Due to the manner in which this draft report to
                    direct recommendations is written, each agency in the overall
                    recommendation had to determine their responsibility for the specific
                    recommendations and answer independently. Air Force provides
                    management comments for those specific recommendations applicable
                    to SAF/FM and SAF/AQ [Acquisition].

           We do not agree with the director that DoD 7600.7-M restricts the format of the
           recommendations as interpreted. While it is true the audit manual states that draft
           reports are to be staffed with management officials who are responsible for taking
           corrective actions, we believe that in context to the nature and scope of this audit
           series that recommendations should encourage a cooperative and integrated effort.
           The Office of Management and Budget, Circular A-123, “Management’s
           Responsibility for Internal Control,” December 21, 2004, observes:

                    Instead of considering internal control as an isolated management tool,
                    agencies should integrate their efforts to meet the requirements of the
                    FMFIA with other efforts to improve effectiveness and accountability.
                    Thus, internal control should be an integral part of the entire cycle of
                    planning, budgeting, management, accounting, and auditing. It should
                    support the effectiveness and the integrity of every step of the process
                    and provide continual feedback to management.

           Inconsistent Information. Representatives from OUSD (Acquisition,
           Technology, and Logistics), Office of the Assistant Secretary of the Air Force
           (Acquisition), SAF/FM, and DFAS provided inconsistent information in
           comments on recommendations in the third report. OUSD (Acquisition,
           Technology, and Logistics) and Office of the Assistant Secretary of the Air Force




16
     Mechanization of Contract Administration Services.
17
     Sample numbers 4 and 26.

                                                       9
    (Acquisition) concurred with recommendations that required contracting officers
    to ensure the proper clauses were inserted in cost-reimbursement contracts.
    However, the Center Site Director, DFAS Denver disagreed, stating the DFAS
    Contract Pay Operations personnel had a means to determine whether the interim
    payments were for cost-reimbursement for services or contract financing. DFAS
    audit support stated that DFAS personnel review the description of the
    deliverables in the contract, and if the contract line item describes mostly
    services, DFAS pays the vendor interest if it is owed. Therefore, DFAS personnel
    do not examine the contract to determine whether the contracting officer inserted
    the requisite clause.

    Validity of Sample Size. The Central Site Director, DFAS Denver did not agree
    that the internal control weaknesses identified in the third report and fourth
    reports presented a high risk. The director stated that he did not view a sample of
    45 contracting actions as representative of the total contracts and transactions
    processed. The director continued by stating, “The sampling size is flawed and
    risk, in fact, is low and internal controls are effective.” However, the director did
    not provide an independent evaluation or risk assessment that proved the risk is
    low. The sample size and test methodology we used is representative of the
    universe and recommended for use by the GAO/PCIE Financial Audit Manual.
    The sample methodology is the generally accepted method for economically and
    effectively determining the nature, timing, and extent of planning the substantive
    testing necessary to determine the materiality of the internal control weaknesses
    and impacts. We believe management should use such control sample test
    methods to initially assess the reliability of its internal control under Office of
    Management and Budget Circular A-123.


Audit Risk
    The internal control weaknesses discussed in this series of reports represent a high
    risk that violation of laws and regulations not only occurred but will likely
    continue to occur if corrective action is not taken. In addition, the unreliability of
    internal controls will affect the efficiency of audit services. Specifically,
    management is not taking full advantage of the benefits of internal control audits
    that Inspectors General and Chief Financial Officers recognize as: (1) improving
    internal control and reducing material weaknesses; (2) reducing errors and
    improving data integrity, documentation, reliability, and reporting; and
    (3) improving agency focus and oversight.

    Each report in this series overlaps, presenting internal control weaknesses within
    four respective functional areas. Those functional areas represent a segregation of
    duties among the contracting officers; Air Force personnel who receive the goods
    or services, resource managers, and funds holders; DFAS vendor and contract pay
    disbursing and certifying officers; and the DFAS accountants. The series results
    were meant to be viewed as a whole, although each subject matter area was
    addressed separately.

    The Director, Air Force Accounting Policy and Compliance (Financial
    Management) stated in his comments on the fourth report that “we have an
    overriding concern that there is no mention of compensating controls in this draft
    report.” We did examine the compensatory controls, although not as they
    necessarily existed within each subject matter area, but in the overall segregation
    of duties and dispensation of authority, documentation and audit trail, procedural
    guidelines, and information processing related to the acquisition and vendor pay
                                         10
    disbursement cycle. We reported that a high risk existed in many of the reported
    internal control weaknesses.

    While some management may view risk as low and internal control effective, the
    Inspector General, as principal auditor, must perform an independent assessment
    of risk and base the cost of future audit services on that assessment. The higher
    the risk that internal control is not effective, the more substantive testing must be
    done at an increased cost to the Air Force. In our opinion, management’s
    philosophy and commitment to the internal control structure, as reflected in the
    comments and views expressed in response to this series of reports, needs to be
    reassessed, in order to strengthen the internal control environment.


Management Comments on the Finding and Audit Response
    Management Comments. The Director, Corporate Reporting, Standards and
    Compliance, DFAS did not fully concur with portions of the finding relating to
    four recommendations from the fourth report in this series, and provided
    additional comments. For recommendation number 1, the Director partially
    concurred stating that a need does not exist for system changes and integration of
    the Mechanization of Contract Administration Services system, Integrated
    Accounts Payable System, General Accounting and Finance System–Base Level,
    and General Accounting and Finance System–Rehost in order to recognize
    transactions as of the date the financial events transpired. The Director based this
    conclusion on a new accrual process first used during the September 2007
    end-of-month reporting. He stated that this is a new process for estimating and
    recording the MOCAS Accounts Payable accruals at the end of each reporting
    period, and that these accruals account for the “financial events” that must be
    recorded at the end of the month. For recommendation number 2, the Director
    nonconcurred stating that the gain or loss on foreign currency transactions
    arguably fails both the “measurable with sufficient reliability” requirement and
    “cost-benefit constraint” required for recognition of the liability of a delivered
    item, as established in Statement of Financial Accounting Concept Number 5.
    For recommendation number 3, the Director concurred with the need to adjust
    financial statements for material prior period adjustments. However, the Director
    nonconcurred with the need to show the goods or services receipt date (financial
    event) as the effective date of the delivered order, unpaid and accounts payable
    entry. The Director stated that the audit was completed prior to the
    implementation of a new accrual process that is documented in the Mechanization
    of Contract Administration Services accounts payable accrual procedure first used
    during the September 2007 end-of-month reporting. For recommendation
    number 4, the Director nonconcurred with the need to recognize unfunded
    liabilities, stating that under FAR 52.232-22 the Government is not legally
    obligated to pay the contractor unless the contracting officer increases the amount
    of funds on the contract. Therefore, it would be improper for DFAS to accrue a
    liability before DOD incurred a legal liability to pay a contractor for work he has
    performed.

    Audit Response. We do not agree with the Director’s comments on DoD IG
    Report No. D2007-059, “Vendor Pay Disbursement Cycle, Air Force General
    Fund,” February 9, 2007, recommendation 1 that a need does not exist for system
    changes and integration of systems in order to recognize transactions as of the
    date the financial events transpired. The need to properly recognize the date of
    financial transactions is a basic requirement of generally accepted accounting
    principles. While procedures may be established to estimate the accruals when
    actual information is not available, it does not eliminate the requirement to record
                                         11
    the information accurately if possible. We do not agree with the Director’s
    comments to recommendation 2, and have included our response under
    Recommendation A.3 that follows. We are unable to respond to the comments on
    recommendation 3 because we have not performed audit work on the
    Mechanization of Contract Administration Services accounts payable accrual
    procedure being used by DFAS. An audit of the process would have to be
    performed to determine whether transactions are being properly recognized in the
    financial statements. We accept the Director’s alternate response for this
    recommendation until another audit can be done. For recommendation 4, the
    Director’s comment that FAR 52.232-22 does not create a legal liability
    contradicts FAR 52.232-22(l) which states that if funding is not provided, the
    contractor is entitled to a percentage of the Schedule fee equaling a percentage of
    the completion of the work contemplated by the contract, and FAR 32.704 (c)
    which states that Government personnel may not encourage a contractor to work
    at risk as it violates the Revised Statutes section 3679 (31 U.S.C. 1341).


Recommendations, Management Comments and Audit
Response
    Deleted Recommendation. As a result of management comments, we deleted
    draft recommendation A.1.a.(2). Draft Recommendation A.1.a.(3) has been
    renumbered as Recommendation A.1.a.(2).

    A.1. We recommend that the Assistant Secretary of the Air Force (Financial
    Management and Comptroller), in coordination with the Assistant Secretary
    of the Air Force (Acquisition) and the Director, Defense Finance and
    Accounting Service:

           a. Perform a thorough review of the internal control weaknesses
    reported in this report series in context to the criteria applied to each audit
    report and the facts presented in support of each deficiency. Such reviews
    should:

    Management Comments. The Deputy Assistant Secretary, Financial Operations
    (Financial Management) concurred with the intent of the recommendation. The
    Deputy stated that the guidance provided by the Federal Manager’s Financial
    Integrity Act and Air Force Instruction 65-201, Manager’s Internal Control
    Program procedures would be reiterated to the functional areas.

              (1) Complete preliminary Antideficiency Act reviews of the
    remaining deficiency (sample number 27) that violated appropriations law
    and regulation, as required in DoD Financial Management Regulation,
    volume 14, chapter 3, section 0304.

    Management Comments. The Deputy Assistant Secretary, Financial Operations
    (Financial Management) nonconcurred with the need to perform ADA reviews for
    the four sample numbers based on General Counsel review documents submitted.
    Furthermore, the Deputy questioned the type of sample used, random or
    judgmental, the use of contracts from the Integrated Accounts Payable System
    and Mechanization of Contract Administrative Services system, the ability to
    reach a high-risk conclusion from a sample of 45 contracting actions, and the
    criteria/parameters used for the sample taken. He also noted inherent differences
    between the Integrated Accounts Payable System and Mechanization of Contract
    Administration Services system, and commented that a Database Expansion and
                                        12
Restructure which occurred in FY 2007 gave Integrated Accounts Payable System
the ability to make payments at a more detailed level. Lastly, the Deputy
suggested that we take a 45 contracting action sample from each system so that
systemic weaknesses could be ascertained.

Audit Response. The Deputy Assistant Secretary, Financial Operations
(Financial Management) comments are partially responsive. The additional
documentation and information provided for sample numbers 11, 24, and 57
satisfy our concerns regarding those actions, and we have modified the report
accordingly. However, the information provided by the Air Force is not sufficient
to resolve sample number 27. The current comments regarding this sample state
that the invoice provided to show work was performed in the period required is
from a subcontractor. However, the Air Force did not provide documentary
evidence to support that the company listed on the invoice was in fact an
authorized subcontractor for the contract in question.

We do not agree with the Deputy Assistant Secretary’s comments on the sample
selected. We stated in the report that a random sample was used and that we only
reviewed contracting actions with deliveries and payments made against the
contracting actions during the period of October 2003 through June 2004. The
origination of transactions in the Mechanization of Contract Administration
Services system or Integrated Accounts Payable System is secondary to the
findings presented, thus we do not believe that two additional sets of data need to
be sampled as part of this audit.

          (2) Examine the accounting policies, procedures, and systems to
bring the Air Force general ledger into compliance with the Federal
Financial Management Improvement Act; Office of Management and
Budget Circular A-127, “Financial Management Systems;” Federal
Accounting Standards Advisory Board standards; and generally accepted
accounting principles and guidelines.

Management Comments. The Deputy Assistant Secretary, Financial Operations
(Financial Management) concurred with the intent of the recommendation. He
stated that they are currently working to bring their systems into compliance with
the Air Force General Ledger and all other related financial policies.

        b. Take action to establish the policies, procedures, system changes
and training necessary to mitigate the internal control risk identified in this
series, based on the reviews conducted under recommendation A.1.a.(1)-(2).

Management Comments. The Deputy Assistant Secretary, Financial Operations
(Financial Management) concurred with the intent of the recommendation. He
stated that Air Force Instruction 65-601, volume 2, chapter 1, “Role of Financial
Analysis (Budget)” will be used to reemphasize proper financial management and
to communicate budget concepts, policies, procedures and techniques.

      c. Include any previously unreported material internal control
weaknesses identified as a result of recommendation A.1.a.(1)-(2) in the
annual report required under section 3512, title 31, United States Code.
Management Comments. The Deputy Assistant Secretary, Financial Operations
(Financial Management) concurred with the intent of the recommendation. He
stated that the Air Force does not have any unreported material weaknesses as a
result of the audit recommendations.


                                    13
A.2. We recommend that the Assistant Secretary of the Air Force (Financial
Management and Comptroller), in coordination with the Office of the Under
Secretary of Defense (Comptroller) and the Office of the Under Secretary of
Defense (Acquisition, Technology, and Logistics), address the Defense
Finance and Accounting Service policy of determining whether a payment is
for a cost reimbursement for services or contract financing by reviewing the
deliverables rather than the relevant contract clauses.

Management Comments. The Deputy Assistant Secretary, Financial Operations
(Financial Management) concurred with the intent of the recommendation by
stating that the Assistant Secretary of the Air Force (Financial Management and
Comptroller) will coordinate with the other organizations to address this matter.
He stated that the program manager of the funds should make the determination
as to the deliverables and that his organization would work with the program
managers to ensure the determination is clear prior to DFAS making payment.

A.3. We recommend that the Director, Defense Finance and Accounting
Service coordinate with the Office of the Under Secretary of Defense
(Comptroller) to revise the accounting policies for foreign currency gains
and losses.

Management Comments. The Director, Corporate Reporting, Standards and
Compliance, DFAS nonconcurred with the recommendation by citing that the
Federal Accounting Standards Advisory Board has not established a policy
addressing foreign currency fluctuations as outlined in this report. Furthermore,
he stated that the DoD OIG’s use of Statement of Financial Accounting Standards
number 52 is inappropriate because that standard relates to foreign currency
financial statement translation which DoD does not do.

Audit Response. We do not agree with the comments from the Director,
Corporate Reporting, Standards and Compliance, DFAS. The Statement of
Financial Accounting Standards number 52 addresses the translation of foreign
currency transactions in addition to financial statements. Such transactions are
clearly defined as “transactions denominated in a currency other than the entity’s
functional currency.” DoD deals with such transactions as evidenced by the need
for a foreign currency fluctuation account. In further defining foreign currency
transactions, the standard states:
       A change in exchange rates between the functional currency and the
       currency in which a transaction is denominated increases or decreases
       the expected amount of functional currency cash flows upon settlement
       of the transactions. That increase or decrease in expected functional
       currency cash flow is a foreign currency transaction gain or loss that
       generally shall be included in determining net income for the period in
       which the exchange rate changes. Likewise, a transaction gain or loss
       (measured from the transaction date or the most recent intervening
       balance sheet date, whichever is later) realized upon settlement of a
       foreign currency transaction generally shall be included in determining
       net income for the period in which the transactions is settled.

We request the Assistant Secretary of the Air Force (Financial Management and
Comptroller) reconsider his position on recommendation A.1.a.(1) and the
Director, Defense Finance and Accounting Service reconsider his position on
recommendation A.3 and provide comments to the final report by May 12, 2008.


                                         14
           B. Interest Payments on Time-and-
              Materials and Labor-Hour Contracts
           DFAS erroneously processed time-and-materials and labor-hour
           (T&M/LH) contract interim payments containing materials as if they were
           subject to the Prompt Payment Act. DFAS paid interest resulting from a
           late payment without the regulatory and contractual authority. There are a
           number of contributing reasons why DFAS processed the contract
           payments in this manner. Specifically, DFAS:

           •   unilaterally interpreted section 1010 of the National Defense
               Authorization Act for FY 2001 (as amended by section 1007 of the
               National Defense Authorization Act for FY 2002) without seeking an
               advance decision;

           •   unilaterally and without authority determined it was in the best interest
               of the Government to pay interest on T&M/LH contracts; and

           •   had a long-standing practice of paying T&M/LH contracts as bureau
               voucher numbers (BVNs) which, when used to make interim
               payments, qualified them for the payment of interest if not paid on
               time.

           As a result, DFAS improperly paid interest on one contracting action in
           violation of laws and regulations, thus exposing itself to a potential
           Antideficiency Act violation. A definitive legal opinion should be
           requested on this matter and appropriate actions taken in response to that
           opinion.


Time-and-Materials and Labor-Hour Contract Criteria
    Section 1301(a), title 31, United States Code. “Appropriations shall be applied
    only to the objects for which the appropriations were made except as otherwise
    provided by law.”

    Public Law. Congress authorized payment of interest on cost-reimbursement
    contracts for services in section 1010 of the National Defense Authorization Act
    for FY 2001, as amended by section 1007 of the National Defense Authorization
    Act for FY 2002 (the Law). The Law required Federal agencies to pay interest
    when they made an interim payment on a cost-reimbursement contract for
    services more than 30 days after receiving a proper invoice for payment from the
    contractor.

    FAR Councils. The FAR Councils issued a final rule with an effective date of
    February 12, 2007, related to the payment of interest on T&M/LH contracts. In
    the final rule, dated December 4, 2006, the FAR Councils amended
    FAR 52.232-7 (i) to authorize the Prompt Payment Act provision for interim
    payments related to the labor-hour portion of T&M/LH contracts. However, the
    FAR Councils noted their lack of authority to authorize payment of interest on
    supplies. Therefore, the FAR Councils amended paragraph (h) to clarify that
    interim payments on contracts for other than services remain as contract financing
    payments not subject to the Prompt Payment Act. The FAR Councils made the
    change because “the Prompt Payment Act applies to fixed-price and

                                        15
          cost-reimbursement contracts for services, it should also be applicable to T&M
          and LH contracts for services.”

          Federal Acquisition Regulation. FAR Part 52.232-7, Payments under
          Time-and-Materials and Labor-Hour Contracts (December 2002), paragraph (h),
          stated that interim payments made prior to the final payment under the contract
          are contract financing payments which are not subject to the interest penalty
          provisions of the Prompt Payment Act. The February 2007 version of this FAR
          clause incorporates the aforementioned changes made as a result of the FAR
          Councils final rule. FAR Part 16, Types of Contracts, distinguishes between
          cost-reimbursement contracts and T&M/LH contracts by addressing the contract
          types in separate Subparts 16.3 and 16.6, respectively.

          Defense Federal Acquisition Regulation Supplement. DFARS Part 216, Types
          of Contracts, also distinguishes between cost-reimbursement contracts and
          T&M/LH contracts by addressing the contract types in separate Subparts, 216.3
          and 216.6, respectively.

          DoD Financial Management Regulation. The FMR, volume 5, “Disbursing
          Policy and Procedures,” and volume 14, “Administrative Control of Funds and
          Antideficiency Act Violations,” November 2006, provide guidance related to
          advance decisions and the required response to potential ADA violations. See
          Appendix B for further explanation of the critical guidance applicable to this
          audit.


Interest Paid
          DFAS erroneously processed T&M/LH contract interim payments containing
          material costs as if they were subject to the Prompt Payment Act. DFAS paid
          interest on one voucher without regulatory and contractual authority. DFAS
          began processing the payment of interest on interim payments on T&M/LH
          contracts for the following reasons.

          Interest Decision Based on the Predominant Line Item. The DFAS Audit
          Support and Attorney-Advisor provided explanations of why DFAS paid the
          interest. DFAS personnel used the following procedure to determine if an interim
          payment is subject to the payment of an interest penalty.
                  Interest is paid on late payments of vouchers that are identified as
                  ‘Kind 6.’ Desk Procedure 201, “Contract Input” states that a contract
                  should be placed into ‘Kind 6’ when a review determines that the
                  contract contains predominantly service line items.

          DFAS improperly coded one T&M/LH contracting action in our sample as
          “Kind 6 (services)” 18 subjecting all payments to potential interest charges. DFAS
          made this decision although the contracting action contained charges for materials
          that should not be subject to the payment of interest.




18
     Sample number 7.
                                                   16
Best Interest of the Government. DFAS personnel commented they had the
authority to pay interest on interim payments for T&M/LH contracts for services
in accordance with FAR 1.102-4(e) and provided the following quote from that
passage in the FAR:

       If a policy or procedure, or a particular practice, is in the best interest
       of the government and is not specifically addressed in the FAR, nor
       prohibited by law (statute or case law), Executive order or other
       regulation, Government members of the Team should not assume it is
       prohibited. Rather, absence of direction should be interpreted as
       permitting the team to innovate and use sound business judgment that
       is otherwise consistent with law and within the limits of their
       authority….

FAR 1.102-4 references the role of the contract acquisition team. That section
ends with “Contracting officers should take the lead in encouraging business
process innovations and ensuring that business decisions are sound.” We agree
FAR 1.102-4 gives the acquisition team latitude in making decisions that are in
the best interest of the Government, but we do not agree that DFAS personnel are
acquisition team members, as intended and established by FAR 1.102-4.
However, even if DFAS personnel were members of an acquisition team,
FAR 1.102-4(e) requires the contracting officers to ensure the business decisions
were sound. That would have required DFAS personnel to coordinate with the
contracting officers.

Long-standing Practice. DFAS has a long-standing practice to pay T&M/LH
contracts as BVNs. A DFAS representative stated:

       DFAS does, however, interpret the meaning of contracts as issued and
       modified by contracting officers when it makes its entitlement
       decisions. There is a very long-standing practice to pay these T&M
       LH contracts based upon BVN’s rather than invoices. DFAS believes
       that this course of dealing would make it very difficult for the
       contracting offices to now take the position that billing on BVN’s on
       T&M LH contracts is not permissible and that acceptance is a
       prerequisite for payment.

       The DFAS representative concluded:

       DFAS has decided that a T&M LH contract billed on a BVN is per se a
       cost-type contract for purposes of the Prompt Payment Act, both with
       regard to Prompt Payment Act interest and the inapplicability of the
       cash management rules. If the contract is for services, Prompt Payment
       Act interest will be applicable if the payment is not made within the
       period prescribed by the statute.

The statement that T&M/LH contracts have historically been processed as BVNs
has no bearing on entitlement under the Law. The Law did not state interest was
payable on interim payments paid by BVN. We do not believe DFAS has the
authority to interpret contracts and make a unilateral decision on entitlement. The
previously cited FAR sections and FAR Councils final rule clearly distinguish
between cost-reimbursement contracts for services and T&M/LH contracts, thus
DFAS should have requested an advance decision prior to paying any interest on
T&M/LH contracts with costs for materials.

DFAS unilaterally, and without proper authority, paid interest in violation of law
and regulation. We were unable to clearly establish a line of authority and
                                   17
    accountability for the actions taken. Therefore, unless the amount is recovered,
    DFAS violated the Purpose Statute, section 1301(a), title 31, United States Code,
    which may result in a potential ADA violation.


Recommendations, Management Comments and Audit
  Response
    B.1. We recommend that the Director, Defense Finance and Accounting
    Service request the Office of the Secretary of Defense, Office of General
    Counsel for a definitive legal opinion related to the legal or administrative
    authority for Defense Financial Accounting Service to make interest
    entitlement decisions based on the predominant contract line item.

    Management Comments. The Director, Corporate Reporting, Standards and
    Compliance, DFAS partially concurred with our recommendation stating that a
    legal opinion would be requested from the DFAS Office of General Counsel by
    January 1, 2008. On December 21, 2007, DFAS provided updated comments for
    this recommendation stating that the DFAS Deputy Assistant General Counsel,
    Accounting and Commercial Law provided a legal opinion on December 20,
    2007. The legal opinion contained excerpts from regulations and DFAS stance
    that “the issue of whether most of the effort on a contract is for services would
    logically be a very important consideration that the paying office would use in
    determining whether a contract is a “contract for services” and whether interest
    were payable.” The Deputy Assistant General Counsel, Accounting and
    Commercial Law cited DoD FMR, volume 10, chapter 7, paragraph 070301 and
    stated that “the disbursing office, if it determines that the payment is an interim
    payment on a cost reimbursement contract for services, must make the interest
    payment....”

    Audit Response. The Director, Corporate Reporting, Standards and Compliance,
    DFAS comments do not resolve this recommendation. We do not agree with the
    DFAS Columbus Deputy Assistant General Counsel’s interpretation of the FMR.
    Section 070301 states that when interest is due, DFAS will pay it without
    requiring the contractor to ask for it. Paragraph 070101 of that same volume
    states that if there is a conflict between the payment terms in the contract and the
    provisions of the Prompt Payment Act, the disbursing office is to request
    clarification from the responsible contracting officer. Because this is an
    interpretation of DoD policy, we reiterate that a legal opinion is needed from the
    Office of the Secretary of Defense, Office of General Counsel.

    B.2. We recommend that the Director, Defense Finance and Accounting
    Service:

           a. Revise Defense Finance and Accounting Service policies,
    procedures, and guidelines based on the definitive opinion of the Office of the
    Secretary of Defense, Office of General Counsel, provided in response to
    Recommendation B.1.

    Management Comments. The Director, Corporate Reporting, Standards and
    Compliance, DFAS concurred with the recommendation by agreeing to make any
    necessary changes resulting from the decision provided by DFAS Office of
    General Counsel.


                                         18
Audit Response. The Director, Corporate Reporting, Standards and Compliance,
DFAS comments are partially responsive. As stated in recommendation B.1, the
legal opinion must come from the Office of the Secretary of Defense, Office of
General Counsel.

       b. Establish procedures and automated system controls to segregate
the material and labor portions of time-and-materials and labor-hour
contract interim payments to prevent the payment of interest on the material
portion.

Management Comments. The Director, Corporate Reporting, Standards and
Compliance, DFAS nonconcurred with the recommendation by citing various
regulations. He noted that Public Law 106-398, 114 Stat. 1654 states that an
agency acquiring services under a cost-reimbursement contract requiring interim
payments that does not pay by the due date must pay an interest penalty on the
payment amount. The Director also stated that 5 C.F.R. 1315.20 further supports
that an interest penalty is due on a late payment under a cost-reimbursement
service contract, and that FAR 52.232-7 establishes that, although
time-and-materials and labor-hour contracts are for some purposes
distinguishable, for purposes of Prompt Payment Act interest they are treated the
same. According to the Director, DFAS does not have the authority to engage in
a payment-by-payment analysis and pay or not pay interest based upon the
characteristic of the specific item, and whether the payment is for services or
goods is irrelevant to this analysis. According to the Director, the decision is
made at the contract level in compliance with FAR 52.232-7(h) which states that
the Prompt Payment Act applies to “interim payments on contracts for services,”
but not “interim payments on contracts for other than services.”

Audit Response. The Director, Corporate Reporting, Standards and Compliance,
DFAS comments do not resolve this recommendation. We do not agree that
FAR 52.232-7 establishes that time-and-materials and labor-hour contracts are
treated the same as cost reimbursement service contracts for purposes of the
Prompt Payment Act. FAR 52.232-7 applies to all “Payments under
Time-and-Materials and Labor-Hour Contracts.” Paragraph (h) of that section
states that interim payments made prior to the final payment under
time-and-materials and labor-hour contracts for other than services are contract
financing payments and are not subject to the interest penalty provisions of the
Prompt Payment Act. The final rule changing this clause was issued by the
Civilian Agency Acquisition Council and Defense Acquisition Regulations
Council (the Councils) and published in the Federal Register on
December 12, 2006. As part of the public comments to the proposed change, a
respondent asked the Councils to “Revise the rule to permit Prompt Payment Act
interest also on the material portion of T&M contracts.” The Councils stated that
“The Prompt Payment Act applies to fixed-price contracts and interim payments
on cost-reimbursable contracts for services. The Councils lack the authority to
extend the Act to interim payments for supplies.” Therefore, this clause requires
that DFAS make a payment-by-payment analysis and pay interest based on what
is being purchased. The same final rule that amended FAR 52.232-7 also
amended FAR 16.307(a)(1) to state, “If the contract is a time-and-materials
contract, the clause at 52.216-7 applies only to the portion of the contract that
provides for reimbursement of materials (as defined in the clause at 52.232-7) at
actual cost.” This is further evidence that the materials portion of these contracts
must be treated separately.

We request the Director, Defense Finance and Accounting Service reconsider his
position on recommendations B.1, B.2.a, and B.2.b and provide comments by
May 12, 2008.
                                   19
                    C. Liability Recognition
                    Delayed subcontractor’s billing caused the prime contractor to include
                    appropriations that were no longer available when he billed the
                    Government on a time-and-materials and labor-hour (T&M/LH)
                    contract. 19 Air Force personnel indicated that the contractor incurred the
                    costs in an earlier period, but could not bill the Government until FY 2004
                    because the subcontractor had not submitted its invoices for payment.
                    DFAS paid the prime contractor in FY 2004 with the prior year funds, but
                    neither Air Force nor contractor personnel could provide documentation
                    proving the work was done during that time period. Because this was a
                    T&M/LH contract, we believe that the Government did not incur a
                    liability until the prime contractor actually received the bill from the
                    subcontractor. However, guidance on the posting and recognition of
                    liabilities associated with contractor-incurred costs of prime and
                    subcontractors is not clear. Therefore, we believe that a legal opinion is
                    necessary to determine whether the Government should be recording the
                    third-party liability for subcontractors work on T&M/LH contracts.


Criteria for Liability Recognition
            Federal Acquisition Regulation. The principal FAR clause that relates to the
            contracting action cited in this finding is FAR 52.232-7, “Payments under
            Time-and-Materials and Labor-Hour Contracts.” That clause states “contractors
            are authorized reimbursement of the reported costs incurred that have been paid
            by cash (or other negotiable instrument) and for subcontract supplies and services
            directly purchased for the contract that will be paid by the contractor within 30
            days.”

            Federal Accounting Standards Advisory Board. FASAB issued the Statement
            of Federal Financial Accounting Standards, No. 1, “Accounting for Selected
            Assets and Liabilities,” March 30, 1993. Regarding recognition of the accounts
            payable, FASAB observes: 20
                    For facilities or equipment constructed or manufactured by contractors
                    or grantees according to agreements or contract specifications, amounts
                    recorded as payable should be based on an estimate of work completed
                    under the contract or the agreement. The estimate of such amounts
                    should be based primarily on the federal entity's engineering and
                    management evaluation of actual performance progress and incurred
                    costs.




19
     Sample number 26, contract F19628-02-F-8197.
20
      We recognize the FASAB reference to facilities and equipment, constructed or manufactured, does not
     apply to contract F19628-02-F-8197. However, we believe the principle of estimating the work
     performed, based on progress and incurred cost reports, is germane.
                                                      20
           FASAB also states: “For financial reporting purposes, liabilities are recognized
           when goods and services are received or are recognized based on an estimate of
           work completed under a contract or agreement.”

           DoD Financial Management Regulation. The DoD FMR presents regulations
           related to the general ledger and accounts payable. See Appendix B for further
           discussion of relevant sections of the FMR.


Incurred Cost Recognition
           Delayed subcontractor’s billing caused the prime contractor to include
           appropriations that were no longer available when he billed the Government on a
           T&M/LH contract. Air Force personnel stated the contractor incurred the costs
           during an earlier period, but could not bill the Government until FY 2004 when
           the subcontractor submitted the invoices and was paid by the contractor. DFAS
           paid the contractor with the prior year funds that were identified on the
           contractor’s invoice, but neither DFAS nor Air Force personnel could provide
           documentation supporting the date the work was done. Because this was a
           TM&LH contract, we believe that the Government did not incur a liability until
           the prime contractor actually received the bill from the subcontractor.

           Specifically, in our first audit report in this series, 21 we reported a potential ADA
           violation related to the contract after determining DFAS used FY 2001 and
           FY 2002 Research, Development, Test, and Evaluation funds to reimburse the
           contractor for costs reported in April 2004. If the FY 2001 and FY 2002 funds
           were used to pay for costs incurred in FY 2004, the goods or services were not a
           bona fide need of those years. However, in management’s comments on the first
           report, Air Force personnel stated the FY 2001 and FY 2002 Research,
           Development, Test, and Evaluation appropriations were properly used because
           the subcontractors, who had delayed billing for services, actually performed the
           services in the years that the FY 2001 and FY 2002 funds were available for
           obligation. In our followup to those comments, we requested the Air Force and
           contractor provide copies of the subcontractor billings to support when
           performance occurred. Neither Air Force nor contractor personnel were able to
           provide the documentation. As a result, we recommend a preliminary ADA
           review.


Definitive Guidance
           Definitive DoD guidance on the posting and recognition of liabilities associated
           with contractor-incurred costs of prime and subcontractors is not available. The
           FASAB, SFFAS No. 1, “Accounting for Selected Assets and Liabilities,”




21
      Report on Vendor Pay Disbursement Cycle, Air Force General Fund: Contract Formation and Funding
     (D-2006-056), March 6, 2006.


                                                    21
     March 30, 1993, provides for the Government to account for incurred cost as
     accounts payable.

     This area of contractor-incurred cost requires considerable research of the legal,
     payment, budgetary, accounting, and system requirements; contractual payment
     instructions; and administrative procedures and training of program-level and
     base-level personnel. Specifically, before DoD can answer the question of how to
     account for the incurred costs, it needs to determine whether there is a legal basis
     for the Government to recognize third party liabilities that exist between a prime
     contractor and subcontractors.


Discussion of Effect
     If it is determined that the Government does not have a liability until the prime
     contractor recognizes the liability, then a preliminary ADA investigation should
     still occur on this contracting action. The prime contractor did not receive the
     questionable billings from the subcontractor until FY 2004; however, the direct
     submission indicated the disbursement should be made from FY 2001 and
     FY 2002 appropriations. If it is determined that the date the subcontractor
     completed the work is the date of the Government’s liability, we would request
     the Air Force or contractor provide documentation from the subcontractor that the
     work occurred in FY 2001 and FY 2002. In addition, Air Force personnel should
     review procedures to determine how to record unrecognized liabilities related to
     subcontractor-incurred costs on time-materials and labor-hour contracts.


Recommendations
     C.1. We recommend that the Assistant Secretary of the Air Force (Financial
     Management and Comptroller) request the Office of the Secretary of
     Defense, Office of General Counsel for a definitive legal opinion concerning
     the recognition of the Government’s liabilities for costs incurred by
     subcontractors on time-and-materials and labor-hour contracts.

     Management Comments. The Deputy Assistant Secretary, Financial Operations
     (Financial Management) concurred with the intent of the recommendation. The
     Deputy stated that Air Force protocol requires an Air Force General Counsel
     opinion on this matter. The Air Force General Counsel agreed with the Major
     Command General Counsel opinion and is responsible for obtaining an Office of
     the Secretary of Defense, Office of General Counsel opinion.

     C.2. We recommend that the Assistant Secretary of the Air Force, Financial
     Management and Comptroller) initiate one of the following actions based on
     the legal opinion provided in Recommendation C.1.

            a. If the Office of General Counsel determines that the Government
     does not have a liability until the prime contractor receives the bill from the
     subcontractor, a preliminary ADA investigation should be initiated.

            b. If it is determined that the date the subcontractor completed the
     work is the date of the Government’s liability:


                                          22
            (1) Provide documentation from the subcontractor that the
work occurred in FY 2001 and FY 2002.

             (2) Review and revise procedures to determine how to record
unrecognized liabilities related to subcontractor-incurred costs on
time-and-materials and labor-hour contracts.

Management Comments. The Deputy Assistant Secretary, Financial Operations
(Financial Management) concurred with the intent of the recommendation. Upon
notification by Air Force General Counsel, the Deputy stated that the Air Force
will take required action.




                                  23
Appendix A. Scope and Methodology
   We conducted this financial audit in accordance with generally accepted
   government auditing standards. Those standards require that we plan and perform
   the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
   for our findings and conclusions based on our audit objectives. We believe that
   the evidence obtained provides a reasonable basis for our findings and
   conclusions based on our audit objectives.

   This is the fifth and final report in a series of reports examining internal control
   and compliance with laws and regulations of the Air Force General Fund vendor
   pay disbursement cycle. In this report, we summarize management’s comments
   made to the first four reports in this series and provide two followup findings
   related to the first and third reports in the series.

   In our examination of the 45 contracting actions (which included funding
   modifications), we examined the contract file documentation for each sample to
   determine the timing, nature, character, and terms and conditions related to the
   action as a financial event. We also obtained copies of the funding documents for
   the contracting action. Based upon the contract data gathered, we traced the
   delivery of the goods or services through receipt and acceptance by the
   Government, invoice certification, payment, and recognition of the related
   transactions in the budgetary and proprietary general ledger accounts in the
   official accounting records.

   We performed the four previous audits from January 2004 through May 2006, and
   this followup audit on the findings and recommendations from August 2006
   through July 2007. Our review of the transactions and the financial events related
   to the deliveries and payments made against the contracting actions during the
   period October 2003 through June 2004, except for those actions that were
   funding modifications. We reconstructed the funding and payment histories for
   all funding modifications back to the inception of the basic order or contract.
   Because of the length of time that transpired in the completion of this audit and
   the report series, we followed up with personnel in April 2007 to determine
   whether management had taken corrective action to the deficiencies identified in
   this report.

   Use of Computer-Processed Data. We relied on data from the General
   Accounting and Finance System–Rehost, General Accounting and Finance
   System–Base Level, Integrated Accounts Payable System, Mechanization of
   Contract Administration Services, and Electronic Document Access systems.
   However, we did not perform a formal reliability assessment of those systems.
   Instead, we compared the system data by tracing the hardcopy contract, funding,
   invoices, receiving documents, and payment vouchers to the transactions recorded
   in the accounting system.

   Use of Technical Assistance. The Office of General Counsel, Office of the
   Inspector General, assisted in the review of the legality of the contracting actions
   and funds used to pay vendors identified in this report. In addition, personnel
   from the Quantitative Methods Division, Office of the Inspector General, assisted
   in the development of the statistical analysis presented in this report.

   Government Accountability Office High-Risk Area. The Government
   Accountability Office has identified several high-risk areas in DoD. This report
   addresses issues related to the Defense Financial Management high-risk area.
                                        24
Prior Coverage
    During the last 5 years, DoD IG has issued four reports related to the Air Force
    General Fund vendor pay disbursement cycle. Unrestricted DoD IG reports can
    be accessed at http://www.dodig.mil/audit/reports.


DoD IG

    DoD IG Report No. D-2007-059, “Vendor Pay Disbursement Cycle, Air Force
    General Fund: Financial Accounting,” February 9, 2007

    DoD IG Report No. D-2007-027, “Vendor Pay Disbursement Cycle, Air Force
    General Fund: Payments to Vendors,” November 24, 2006

    DoD IG Report No. D-2006-085, “Vendor Pay Disbursement Cycle, Air Force
    General Fund: Funds Control,” May 15, 2006

    DoD IG Report No. D-2006-056, “Report on Vendor Pay Disbursement Cycle,
    Air Force General Fund: Contract Formation and Funding,” March 6, 2006




                                        25
Appendix B. DoD Financial Management
            Regulation Guidance
DoD Financial Management Regulation (FMR) provides guidance applicable to this
audit. Volumes 1 and 4 relate to finding C of this report; Volumes 5 and 14 relate to
finding B; and Volume 14 also relates to finding A.

FMR, volume 1, chapter 7, section 070702 states “An entry to record delivered orders
unpaid in budgetary accounts requires a corresponding entry to record accounts payable
in proprietary accounts.”

FMR, volume 4, chapter 9, section 090201 states the following regarding the recognition
of accounts payable resulting from ongoing shipbuilding or construction of facilities:

              Accounts payable resulting from ongoing shipbuilding or construction
              of facilities is based on the percentage of completion of the project….
              The accounts payable is recognized because formal acceptance of the
              final product by the DoD Component is not the determining factor for
              accounting recognition. The DoD Component acquires an asset during
              each accounting period based on constructive or de facto receipt and
              should recognize an accounts payable during each accounting period.

FMR, volume 5, chapter 1, section 010302 states that a pre-payment examination is to
ensure that vouchers contain the necessary substantiation and documentation for lawful
and proper payment. The pre-payment examination includes: (1) validating the payment
is permitted by applicable law or regulation, and (2) assuring the request for payment is
supported by basic documents. Section 010801 states “a DO [disbursing officer],
certifying officer, or departmental accountable official should seek the advice of the
appropriate office, depending on the nature of the issue (see Appendix E), when they are
in doubt about the legality of authorizing the obligation or payment of government
funds.” Appendix E to volume 5 states that advance decisions on the use of appropriated
funds be made by the Office of the Secretary of Defense, Office of the Deputy General
Counsel (Fiscal).

FMR, volume 14, chapter 3, section 0304 states:
              In some cases, the General Accounting Office; Inspector General (IG),
              DoD; a Military Department Audit Agency; or other organizations
              external to a DoD Component may advise in a report that a potential
              [Antideficiency Act] violation may have occurred…. Within 10
              business days of receipt of a draft report that alleges a potential
              violation, the Office of the Under Secretary of Defense (Comptroller),
              the Assistant Secretary for Financial Management of a Military
              Department or the Comptroller of a Defense Agency or DoD Field
              Activity, as applicable, shall request that a preliminary review of the
              potential violation be initiated within the next 30 days.




                                                26
Appendix C. Contracting Actions Selected for
            Review




                       27
28
29
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Assistant Secretary of the Air Force (Acquisition)
Auditor General, Department of the Air Force

Combatant Command
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Finance and Accounting Service

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform




                                          30
Department of the Air Force Comments
                                       Final Report
                                        Reference




                                       Attachments
                                       Not Included




                     31
Final Report
 Reference




  Deleted




               32
     Final Report
      Reference




     Attachments
     Not Included




33
Final Report
 Reference




Attachments
Not Included




               34
     Final Report
      Reference




     Attachments
     Not Included




35
Final Report
 Reference




Attachments
Not Included




               36
Defense Finance and Accounting Service
Comments




                      37
38
39
40
41
42
43
44
45
46
47
48
49
50
51
52
53
54
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
Amy J. Frontz
John W. Barklage
Erin S. Hart
James D. Hartman
William F. Lanyi
Lam B. Nguyen
Lusk F.Penn
